December 23, 2010

VINCENT H. DEVITO JR.
VICE PRESIDENT, CONTROLLER

SUBJECT: Management Advisory – Workers’ Compensation Liability Estimate
        (Report Number FT-MA-11-002)

This report presents the results of our review of the U.S. Postal Service workers’
compensation liability estimate, including the model used to estimate the liability
(Project Number 10BM003FT001). Our objectives were to improve the workers’
compensation model and reduce the volatility of management’s worker’s compensation
liability estimate. This report responds to a request from the Postal Service Board of
Governors (Board) Audit and Finance Committee to examine the Postal Service’s
workers’ compensation liability. This audit addresses financial risk. We will continue
audit work in this area to evaluate the Postal Service’s participation in the
U.S Department of Labor (DOL) workers’ compensation program and the costs and
benefits of that participation. See Appendix A for additional information about this audit.

Compensation for work-related injuries of Postal Service employees falls under the
Federal Employees’ Compensation Act (FECA).1 The Office of Workers’ Compensation
Program (OWCP) within the DOL administers FECA on behalf of the Postal Service.
The Postal Service is required by generally accepted accounting principles (GAAP) to
account for future workers’ compensation costs not yet paid. These costs include
employees’ medical expenses, payments for continuation of wages, and DOL
administrative fees. The Postal Service, using an actuarial2 model, estimates the
workers’ compensation liability for all future payments they will make to injured
employees.

In fiscal year (FY) 2009, management changed the frequency of updates made to the
discount rates. Prior to Quarter (Q) 3, FY 2009, management had not updated the
discount rates used in the workers’ compensation model since FY 2007.3 The liability
changes prior to Q3, FY 2009 were fairly stable; however, in Q3, FY 2009 management
elected to update the discount rates each quarter and volatility in the resulting liability
increased. Long-term liability amounts, which had increased by only $200 million in all



1
  5 U.S.C., Chapter 81.
2
  Actuarial science applies the mathematics of probability and statistics to define, analyze, and solve the financial
implications of uncertain future events. Actuarial science is applied in the study of financial organizations to analyze
their liabilities and improve financial decision making.
3
  The established procedure was to formally update these rates every 3 years, with an informal review annually.
Workers’ Compensation Liability Estimate                                                               FT-MA-11-002



of FY 2008, increased by $1.7 billion in Q3, FY 2009 alone,4 and another $400 million in
Q4, FY 2009. The long-term liability amounts again fluctuated significantly in FY 2010
when compared with FY 2009, with changes ranging from a decrease of $900 million in
Q1, to an increase of $2 billion in Q3. The total change in liability in FY 2010 was an
increase of $2.5 billion.

The Postal Service workers’ compensation liability of $12.6 billion at September 30,
2010, is significantly larger than that of comparable private sector companies. For
example, Wal-Mart reported total self-insured liability5 of $3.2 billion on January 31,
2010; United Parcel Service reported $ 2.5 billion on December 31, 2009; and FedEx
reported $1.6 billion on May 31, 2010. The length of time a claim remains open can
affect the cost of the claim. The Postal Service has claims dating back to the era of the
Post Office Department since it does not have the authority to settle claims, as private
sector companies do.

Conclusion

Volatility is inherent in the workers’ compensation liability, not only in the Postal Service
but also in other benchmarked organizations. The majority of benchmarking partners’
annual reports recognized the potentially high level of uncertainty associated with
estimating the financial liability for workers' compensation.

However, the Postal Service could take action to smooth or reduce the volatility of this
significant liability. Specifically, management should:

        Consider using discount rates similar to the DOL.
        Revise the weights of the actuarial methods they use in the model.

In addition, management could improve the model by ensuring that personnel who
develop the liability estimate better understand the model, including the assumptions
made, the analyses conducted, and the rationale for the methods used. Although we did
not find opportunities for economic impact in this audit, the U.S. Postal Service Office of
Inspector General (OIG) will perform additional work that will address potential cost
savings.

Discount Rates

Effective in Q3, FY 2010, management elected to refine their estimate by developing
new discount rates for compensation and medical expense that, in fact, increased the
volatility of that estimate. Formerly, management developed discount rates using a
simple average of a mix of projected interest rates for selected U.S. Department of

4
  In 2009, management moved the annual DOL payment, historically made on September 15, to October 15;
therefore, this amount also includes a liability for chargeback year 2009 of $1.1 billion. Had the payment been made
on September 15, the increase would have been $1 billion instead of $2 billion.
5
  This includes workers’ compensation, general liability, auto liability, and employee health benefits.




                                                          2
Workers’ Compensation Liability Estimate                                                             FT-MA-11-002



Treasury (Treasury) securities. Starting with Q3, FY 2010, management began using a
weighted average6 of Treasury spot rates.7 This weighted average was significantly
lower than the simple average of projected rates used in the prior quarter. Management
informed us they did a study to identify the best approach for developing discount rates
and selected spot rates. Based on research and analysis conducted in Q3, FY 2010,
management determined that the projected Treasury rates were no longer
representative of the estimated fair value of the workers’ compensation liability.
Comparing Q3, FY 2010 to Q2, FY 2010 shows that workers’ compensation liability
increased by $2.0 billion to $11.6 billion, resulting primarily from the decrease in the
discount rates.

The DOL8 does not use Treasury spot rates. Instead, it discounts these projected
annual benefit payments using a simple average of forecasted 10-year Treasury note
interest rates from the Office of Management and Budget (OMB). The workers’
compensation liability the DOL calculated was fairly consistent from FYs 2008 to 2009.9
Although the Postal Service follows the Financial Accounting Standard Board’s (FASB)
accounting standards10 and the DOL follows Federal Accounting Standards Advisory
Board’s (FASAB) financial accounting standards,11 both sets of standards are similar in
how they determine the discount rate to use. The Postal Service used spot rates
because they believed this approach better measured the liability while conforming to
FASB standards.

The Board’s independent public accounting firm (IPA) — contracted to express an
opinion on the Postal Service’s financial statements — stated the use of spot rates is
consistent with other companies registered with the Securities and Exchange
Commission (SEC).12 They pointed to guidance provided in SEC Staff Accounting
Bulletin 92 (SAB 92) on discounting of environmental liabilities that, in their experience,
the SEC has suggested be applied in most situations involving the discounting of
recorded liabilities. They also expressed their position, consistent with SAB 92, that the
discount factor applied should reflect the risk-free interest rates applicable to obligations
of similar duration as the cash flows of the obligation subject to discounting for
accounting purposes. We reviewed publicly available documentation to determine the
existence of more specific SEC requirements for computing discount rates but were
unable to find anything authoritative. Therefore, we contacted an associate chief
accountant at the SEC who stated there is nothing authoritative regarding the
methodology for computing discount rates. There does not appear to be any direct
6
  The applicable spot rate is weighted based on claims for a given year.
7
  The spot rate is the price quoted for immediate settlement on a commodity, a security, or a currency.
8
  We benchmarked with the DOL, who determines both civilian and military agencies’ liabilities for future workers’
compensation benefits for civilian federal employees.
9
  The Postal Service liability, as computed by the DOL, on September 20, 2008, was $9.544 billion; and on
September 30, 2009, was $9.507 billion, a decrease of $37 million, or 0.4 percent.
10
   GAAP applicable to public companies.
11
   GAAP applicable to federal agencies that adhere to the Chief Financial Officers Act of 1990.
12
   The Postal Act of 2006 requires the Postal Service to report in an SEC-like manner (for example, prepare Form 10-
K and 10-Q reports) even though it is not a registered company with the SEC and is not subject to the requirements
of the SEC whose mission is to protect investors.




                                                         3
Workers’ Compensation Liability Estimate                                           FT-MA-11-002



requirement that SEC registrants use spot rates to discount workers’ compensation
liabilities.

The DOL calculated the Postal Service’s estimated actuarial liability for future workers’
compensation benefits as of September 30, 2009, at $9,507,251,000, which represents
36.1 percent of the total federal liability. It calculated that same liability as of
September 30, 2010, at $10,597,448,000, which represents 37.8 percent of the total
federal liability. Thus, the volatility in the DOL figures is much less than that in the Postal
Service’s figures — $1.1 billion in FY 2010, rather than $2.5 billion.

The Postal Service is a component of the government-wide financial statements. We
could not determine whether those statements included workers’ compensation
amounts calculated by the Postal Service or the DOL because the line item in the
government financial report does not list liabilities by federal agencies. We believe using
DOL’s approach for computing discount rates would be more consistent with that of
other federal components. Additionally, using the DOL’s approach for discount rates
may be more logical than following the lead of other SEC registrants, given that private
sector liabilities in this area are often shorter term because these companies have the
option to settle claims in this area. Postal Service liabilities are more consistent with the
federal government liabilities, which can be long term in nature.

Management stated their actuarial and accounting advisors and external auditors have
advised them that rates more specific to the Postal Service payout experience provide a
better estimate of their liability. Although it is acceptable for the Postal Service to use
discount rates different from DOL’s, to reduce volatility, the Postal Service should
consider using the simple average of 10-year Treasury note rates used by DOL. See
Appendix B for our detailed analysis of this topic.

We recommend the vice president, controller:

1. Evaluate whether to use a simple average of 10-year Treasury note rates similar to
   the Department of Labor’s in order to reduce volatility in the workers’ compensation
   liability.

Management’s Comments

Management agreed to consider further alternatives for calculating the liability before
the end of Q2, FY 2011. They agreed that using the OMB’s forecasted 10-year Treasury
rates would likely reduce volatility and be consistent with DOL procedures. However,
they advised that they conducted an analysis in Q3, FY 2010 and concluded that proper
accounting treatment under GAAP was to discount estimated future payments using
Treasury spot rates as of the measurement date, weighted relative to expected cash
outflows. In addition, they asserted the Postal Service’s IPA would have considered Q3
FY 2010 financial statements in error had management not adopted spot rates.
Furthermore, they pointed out that use of either methodology has no impact on future




                                               4
Workers’ Compensation Liability Estimate                                                             FT-MA-11-002



cash payments and, accordingly, selected the discounting method that best meets
accounting standards. See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issues identified in the report. We recognize the
rationale management applied to use the spot rates for the workers’ compensation
liability estimate. However, we believe management has some latitude in developing the
estimated liability, and even though the amount does not impact future cash flows, it
does have a direct impact on the reported net income or loss. As the substantial net
loss in FY 2010 generated significant publicity and concern, considering a different
methodology could be critical to the perception of the Postal Service in these difficult
economic times.

Weights of Actuarial Methods

The Postal Service uses four separate actuarial methodologies to produce four separate
undiscounted liability estimates: paid loss development, frequency and severity,
expected unpaid, and trended severity methods.13 The Postal Service has an
opportunity to reduce volatility by revising the weights given to the actuarial methods
used in the model. Of the four methods, the paid loss development method is the most
volatile because the weights differ across injury ages.14 The loss development method
is weighted most heavily for low injury ages, where there is the most volatility; and the
frequency and severity method produced the least volatility.15 Therefore, changing the
weighting factors of the methodologies could smooth volatility.16

We recommend the vice president, controller:

2. Evaluate how changing the weights of the methodologies impacts the volatility of the
   workers’ compensation liability and, based on the results, consider modifying the
   weighting factors.

Management’s Comments

Management agreed to consider re-weighting the actuarial methodologies in the future.
However, they stated the majority of the volatility results from application of financial
accounting principles. They also cautioned that too much emphasis on volatility could

13
   The USPS Workers’ Compensation – Model Manual contains descriptions of these methodologies. Also, see
Appendix A for a further description of the methodologies.
14
   Period of time elapsed since the injury occurred.
15
   Based on an analysis performed by IHS Global Insight using undiscounted actuarial estimates by injury age for
financial reporting quarters ending June 30, 2007, through December 31, 2009. The liability estimates from the
trended severity method are designed to match the loss development method at four points during the initial 10-year
injury period. Therefore, we are not comparing the trended severity method here.
16
   An analysis based on changing the weights of the methodologies was beyond the scope of this review.




                                                         5
Workers’ Compensation Liability Estimate                                                                   FT-MA-11-002



affect the model’s responsiveness to real changes in cost claims. Management added
that the weighting in the current model is the product of its decisions to balance stability
and responsiveness. Management stated they could not provide a date when
reweighting of the actuarial methodologies would be done because such a change
would entail a significant programming effort that they believe should only be done in
conjunction with other changes to the model to minimize costs.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issues identified in the report. We recognize
reducing volatility should not be the only goal in any updates to the model. Reduction
should not be accomplished by forsaking responsiveness or adherence to accounting
standards. However, as noted previously, considering a different workers’ compensation
methodology could be critical to the perception of the Postal Service in these difficult
economic times. We further recognize the costs associated with making changes to
automated systems. As such, we will continue to monitor the workers’ compensation
liability and efforts associated with improving its estimate.

Management Ownership of the Workers’ Compensation Model

Postal Service personnel responsible for recording the estimated liability for workers’
compensation were not sufficiently knowledgeable of the model, including assumptions
made, analyses conducted, and rationale for the methods used to develop the liability.
Specifically, during our discussions with management, they were unable to provide
certain information and answer certain questions regarding the workers’ compensation
model. For example:

          The outside actuary maintains worksheets calculating the tail factor.17

          Management did not know why the paid loss development method was weighted
           more heavily for low injury ages.
            
          Management could not tell us how they combine the four actuarial methodologies
           to produce the liability estimate and stated they do not look at the weighting of
           methodologies or how the model calculates the liability.

This occurred because management stated it did not have the expertise to understand
the model. We believe the Postal Service should have a better understanding of all
components of the model.

By better understanding the model, management can ensure it reflects the environment
in which the Postal Service operates. For example, the model weighs certain

17
     The estimated liability for losses payable from claims from 10 years of age until final settlement.




                                                              6
Workers’ Compensation Liability Estimate                                      FT-MA-11-002



methodologies up to a certain injury age. Once the injury has reached a certain age, the
weights applied to the affected methodologies change. If management better
understood this weighting approach with respect to actual experience, they would know
whether they needed to revise the model. Further, management would be better able to
determine when changes to the model are needed. Finally, heavy reliance on a
contractor for part of a significant estimate increases the Postal Service’s risk of not
aligning this estimate with future cash outlays.

We recommend the vice president, controller:

3. Ensure personnel responsible for developing the liability estimate understand the
   model.

Management’s Comments

Management neither agreed nor disagreed with the recommendation, but disagreed
with the assertion that it does not sufficiently understand the model’s results. They
stated they review the model’s output every quarter and, for example, their analysis of
the tail factor in 2009 resulted in revisions reflected in 2010. They further stated they
continually strive to improve their analyses as well as the knowledge of employees
responsible for running the model. They also pointed out that an independent actuary
who annually certifies as to the reasonableness of the results reported by management
reviews the model’s results.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation.
Although management disagreed that they did not sufficiently understand the model,
they acknowledged the need to strive to improve the quality of their analyses and
upgrade the knowledge of employees responsible for running the model. The purpose
of the recommendation was to help confirm personnel understood the assumptions and
rationale as inputs to the model, not simply its outputs, thereby ensuring the model
reflects the environment in which the Postal Service operates. As noted in the report,
we found, in certain cases, responsible personnel could not answer technical questions
about the model (for example, why the paid loss development method was weighted
toward low injury ages). While we still believe management could increase its
knowledge and understanding of the model, we acknowledge their efforts to review and
analyze the model and the independent actuary’s reasonableness review. Accordingly,
we will not pursue this issue at this time. We will continue to monitor as part of our
ongoing financial statement audit work.

Benchmarking

Overall, the Postal Service follows the same general reporting principles as all reviewed
benchmarking organizations. However, compared to the other benchmarked




                                            7
Workers’ Compensation Liability Estimate                                                           FT-MA-11-002



organizations, the Postal Service presents much more comprehensive information on
total size of the liability (both current and noncurrent), estimation methodologies, and
modeling assumptions for its workers' compensation liability. The level of detail provided
by the Postal Service regarding the estimation and size of its workers' compensation
liability is more detailed and transparent than all reviewed organizations. Thus, the
Postal Service represents best practices in this area.

Additionally, most other organizations had not revised their discount rate assumptions
as dramatically as the Postal Service.18 In fact, three benchmarking partners used the
same discount rate for FYs 2008 and 2009. However, one state government reduced its
discount rate used in calculating its workers’ compensation liability, contributing to an
increase in its liability comparable to the Postal Service. Another organization reported
their estimates were sensitive to changes in discount rate assumptions.

Other Alternatives

We considered the following alternatives to the Postal Service’s liability estimation
methodology but determined their resulting impact would not be significant or the
change would not be appropriate for the Postal Service:

        Longer term paid loss development averages – the paid loss development
         method develops the liability using an average of the prior 5 years’ of claims
         history. A longer average (for example 10 years) reduces the weight of each year
         from 1/5 (20 percent) to 1/10 (10 percent). The difference would not be
         significant.

        Replace historical medical inflation with future medical inflation assumptions —
         the difference would not be significant.

        Revise the expected losses to the prior quarter’s central estimate — the
         difference would not be significant.

        Set assumptions of future cost-of-living allowance and medical inflation at a
         constant differential from future inflation assumptions — this would not be
         appropriate for the Postal Service because the constant differential from future
         inflation assumptions does not reflect experience.

        Revise the liability estimate to include a provision for uncertainty. We were
         unable to identify any guidance associated with this proposal.

        Hedging of rate changes — hedging is not an option for the Postal Service.
          

18
  The benchmarking partners provided no information on the assumptions behind their choice of discount rate used;
therefore, we could not draw conclusions about the rationale for choosing the discount rate used for workers’
compensation liability.




                                                        8
Workers’ Compensation Liability Estimate                                    FT-MA-11-002



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.

     E-Signed by John Wiethop
 VERIFY authenticity with ApproveIt




for
John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Corporate Audit and Response Management




                                           9
Workers’ Compensation Liability Estimate                                                                FT-MA-11-002



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Compensation for work-related injuries for federal employees falls under the authority of
Title 5, U.S.C. Chapter 81, FECA.19 The OWCP within the DOL administers FECA on
behalf of the Postal Service. The OWCP’s principal responsibilities are to evaluate,
adjudicate, and pay claims related to workers’ compensation.

FECA provides the following benefits to Postal Service employees who suffer job-
related injuries or disabilities:

        Continuation of regular pay for periods of disability as a result of a traumatic job-
         related injury.

        Compensation for wages lost as a result of job-related injury.

        Medical care for injury or disability that is job-related.

        Vocational rehabilitation.

The DOL sends an invoice to the Postal Service annually for the workers’ compensation
claims it has paid, processed, and credited. Each 12-month period is known as a
chargeback year, ending on June 30. The Postal Service compensates the DOL for
administering the program and claims paid. For the chargeback year ending June 30,
2009, reimbursement was $1,069 million for claims paid and $54 million for
administrative expenses.

The Postal Service is required to account for future workers’ compensation costs
associated with employees’ medical expenses, payments for continuation of wages, and
DOL administrative fees not yet paid. In addition, the Postal Service, using an actuarial
model, estimates the workers’ compensation liability for all future payments to be made
to employees injured in previous years and all future payments to employees who have
been injured in the current year. IPFC, Inc., constructed the model, first used in Q4, FY
2008. It contains four actuarial methodologies that are combined using a weighted
average to produce the estimated liability, as shown in Figure 1.




19
  Title 5 does not apply to the Postal Service; however, under Title 39, U.S.C. Chapter 1005(c), all Postal Service
employees are covered by FECA.




                                                          10
Workers’ Compensation Liability Estimate                                              FT-MA-11-002



                           Figure 1: Four Actuarial Methodologies

      Methodology                           Description                      Weights*
1   Paid Loss            Forecasting the future payments that will be        5%-100%
    Development          associated with injuries of various ages, by
                         quarter, up to 40 quarters from the occurrence of
                         injury.

2   Frequency and        Forecasting the number of claims relative to the    0%-31%
    Severity             number of hours worked in a given quarter of
                         injury and the average payment per claim.

3   Expected Unpaid      Forecasting based on the estimated unpaid           0%-32%
                         amounts at 40 quarters plus what has been paid
                         to date.

4   Trended Severity     Applying a selected severity trend rate to          0%-32%
                         compensation and medical claims separately.

* Weights vary by injury age, from 1-40 quarters.
Source: OIG and USPS Workers’ Compensation – Model Manual

The actuarial methodologies used are paid loss development, frequency and severity,
expected unpaid, and trended severity methods. Estimated liability is based on the
assumption that historical claim activity represents a reasonable indicator of future
patterns.

In addition, the workers’ compensation model, when computing an estimated liability,
takes into account discount and inflation rates. Discounts are applied towards future
compensation provided to injured employees and medical expenses paid. Discounts are
used because they take into account the time value of money (for example, a dollar is
worth more today than in the future). Inflation accounts for increases in compensation
and medical costs. GAAP requires management to include inflation when calculating
present value under certain conditions.

The long-term liability at September 30, 2010, was $11.6 billion, an increase of
approximately $2.4 billion over FY 2009. As of September 30, 2009, the long-term
liability was $9.1 billion, an increase of $2.1 billion over FY 2008.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether opportunities exist for economic impact (cost
savings) or to improve the workers’ compensation model and reduce the volatility of
management’s workers’ compensation liability estimate.

In support of our objectives, we contracted with IHS Global Insight for assistance in
reviewing the workers’ compensation model for reasonableness of the assumptions



                                                   11
Workers’ Compensation Liability Estimate                                                            FT-MA-11-002



used in computing the estimate. In addition, we examined the model and related
documents to evaluate volatility of the model’s estimates. Furthermore, we
benchmarked with other organizations to identify opportunities for improving the Postal
Service’s liability estimation process.

Our initial focus was workers' compensation liabilities only. However, due to insufficient
responses from these organizations, we expanded our review to include other, similar
long-term liabilities. We looked at other organizations to understand how they calculated
such liabilities and focused on volatility, transparency, and discount rates. We also
inquired as to whether any external influences affected their liability estimates and the
extent of any validation of the methodologies used. We limited definitive conclusions on
benchmarking findings due to challenges in securing interviews and an inconsistent
transparency in reporting workers' compensation liabilities. We obtained 1120
benchmarked organizations’ financial reports for FYs 2008 and 2009 from publicly
available annual financial reports; however, we could obtain information on the total
workers' compensation liability from only six21 organizations.

We conducted this review from December 2009 through December 2010 in accordance
with the Quality Standards for Inspections.22 We discussed our observations and
conclusions with management officials on November 5, 2010, and included their
comments where appropriate.

We assessed the reliability of data from the Postal Service workers’ compensation
model and determined the data were sufficiently reliable for the purpose of this report.

PRIOR AUDIT COVERAGE

The OIG did not identify any prior audits or reviews related to the objective of this audit.




20
   The state of New York; University of California; California State Compensation Insurance Fund; New York State
Insurance Fund; Washington Metropolitan Area Transit Authority; University of Virginia; University of Michigan; and
four Fortune 500 companies.
21
   The state of New York; University of California; University of Michigan; and three Fortune 500 companies.
22
   These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978
as amended by the IG Reform Act of 2008, created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.




                                                        12
Workers’ Compensation Liability Estimate                                                            FT-MA-11-002



                                APPENDIX B: DETAILED ANALYSIS

Discount Rates

Effective with Q3, FY 2010, management elected to refine their estimate by developing
new discount rates for compensation and medical expense. Formerly, discount rates
were developed using a mix of interest rates for selected Treasury securities projected
over a 10-year period. For compensation, the discount was a simple average of interest
rates of 5-, 10-, and 30-year maturities; and for medical expenses, the discount was a
simple average of 90-day and 5- and 10-year maturities. Commencing with Q3, FY
2010 reporting, management began using a weighted average of Treasury spot rates as
of June 30, 2010, for 1-, 5-, 10-, 20-, and 30-year notes. Management believed these
rates allowed for a better estimate of fair value of the workers’ compensation liability at
the measurement date. As shown in Figure 2, comparing Q3, FY 2010 to Q2, FY 2010,
workers’ compensation liability increased to $11.6 billion (an increase of $2 billion),
resulting primarily from a decrease in the discount rate of 1.6 percent for compensation
and 1.5 percent for medical expenses.

                        Figure 2: Impact of Change for Discount Rates

                                   Q2, FY 2010                  Q3, FY 2010                  Change
Compensation Claims                     5.1%                        3.5%                      (1.6%)

     Medical Claims                     4.5%                        3.0%                      (1.5%)
    Total Workers’
Compensation Liability               $9.6                    $11.6                              $2.0
       (Billions)
Source: Postal Service quarterly 10-Q and annual 10-K financial reports.

We benchmarked with the DOL, the entity that determines both civilian and military
agencies’ liabilities for future workers’ compensation benefits for civilian federal
employees as mandated by the FECA. The DOL does not use Treasury spot rates,
instead discounting these projected annual benefit payments using a simple average of
forecasted 10-year Treasury note rates from the OMB, resulting in less volatility.

The DOL provides liability estimates for projected future workers’ compensation benefits
to each reporting entity preparing financial statements under the Chief Financial Officers
Act.23 The DOL states that each entity should include its respective portion of the
actuarial liability for workers’ compensation benefits as a liability in its financial
statements, if such amounts are material. However, the Postal Service does not use this
amount in its financial statements because it applies FASB accounting standards.


23
   The Chief Financial Officers Act of 1990 (Public Law 101-576), as amended by the Government Management
Reform Act of 1994 (Public Law 103-356), requires annual, audited financial statements for the U.S. Government and
its component entities, referred to as federal reporting entities.




                                                       13
Workers’ Compensation Liability Estimate                                                             FT-MA-11-002



The DOL follows FASAB financial accounting standards, which require the use of
Treasury borrowing rates for discounting but does not specify a precise method for
selecting such rates. There were a number of options for the discount rate; however, the
discount rate generally required in FASAB standards is the rate on marketable Treasury
securities of similar maturity to the cash flows of the obligation in question.24 This
concept is very similar to FASB standards,25 which state that a fair value measurement
using present value should include the time value of money, represented by the rate on
risk-free monetary assets that have maturity dates or durations that coincide with the
period covered by the cash flows (risk-free interest rate). Treasury securities are
deemed risk-free because they pose neither uncertainty in timing nor risk of default to
the holder. The Postal Service uses such Treasury investments in its workers'
compensation model; however, as noted above, it uses Treasury spot rates, while the
DOL uses a simple average of 10-year Treasury notes. The resulting liability using the
DOL’s approach is less than the liability using the Postal Service’s method.

Because the Postal Service is not a public company and does not have shareholders, it
is not subject to the requirements of the SEC whose mission is to protect investors.
However, the Postal Act of 2006 requires the Postal Service to prepare an annual report
containing the information required by the SEC under such sections on Form 10-K.26
The Board’s IPA has interpreted this financial statement requirement to mean the Postal
Service needs to comply with SEC guidance. Further, the IPA stated the use of spot
rates is consistent with other companies registered with the SEC. They pointed to
guidance provided in SEC SAB 92 on discounting of environmental liabilities that in their
experience the SEC has suggested be applied in most situations involving the
discounting of recorded liabilities. They also expressed their position, consistent with
SAB 92 that the discount factor applied should reflect the risk free interest rates
applicable to obligations of similar duration as the cash flows of the obligation subject to
discounting for accounting purposes. We reviewed publicly available documentation to
determine SEC requirements for computing discount rates but were unable to find
anything authoritative. Therefore, we contacted an associate chief accountant at the
SEC who stated there is nothing authoritative regarding the methodology for computing
discount rates. There does not appear to be any direct requirement that SEC registrants
use spot rates to discount workers compensation liabilities.

The DOL calculated the Postal Service’s estimated actuarial liability for future workers’
compensation benefits as of September 30, 2009, at $9,507,251,000, which represents
36.1 percent of the total federal liability. It calculated that same liability as of
September 30, 2010, at $10,597,448,000, which represents 37.8 percent of the total
federal liability.
24
   Statements of Federal Financial Accounting Standards 33, Pensions, Other Retirement Benefits, and Other Post-
employment benefits: Reporting Gains and Losses from Changes in Assumptions and Selecting Discount Rates and
Valuation Dates, October 14, 2008.
25
   Accounting Standard 820-10-55-5.
26
   The Postal Act of 2006 requires the Postal Service to report in an SEC-like manner (for example, prepare Form 10-
K and 10-Q reports) even though it is not a registered company with the SEC, and is not subject to the requirements
of the SEC whose mission is to protect investors.




                                                        14
Workers’ Compensation Liability Estimate                                           FT-MA-11-002




In comparison to private sector companies, the Postal Service’s liability is also
significantly larger than comparable private sector companies. For example, Wal-Mart
reported total self-insured liability of $3.2 billion at January 31, 2010; United Parcel
Service reported $2.5 billion at December 31, 2009; and FedEx reported $1.6 billion at
May 31, 2010. The length of time a claim remains open can affect the cost of the claim.
The Postal Service has claims dating back to the era of the Post Office Department and,
since it does not have the authority to settle claims, the resulting liability is greater. As a
result, the Postal Service might want to consider whether it makes sense to follow a
method used by public companies that can settle claims.

The Postal Service is a component of the government-wide financial statements. We
could not determine whether those statements included workers’ compensation
amounts calculated by the Postal Service or the DOL because the line item in the
government financial report does not list liabilities by federal agencies. We believe using
the DOL’s approach for computing discount rates would be more consistent with that of
other federal components.

Management stated their actuarial and accounting advisors and external auditors have
advised them that rates more specific to the Postal Service payout experience provide a
better estimate of their liability. It is acceptable for the Postal Service to use discount
rates different from those of the DOL. However, to reduce volatility, the Postal Service
could consider using a simple average of 10-year Treasury note rates similar to what
the DOL uses.

In general, the benchmarking partners provided no information on the assumptions
behind their choice of the discount rate used; therefore, this analysis cannot draw
conclusions about the rationale for the choice of discount rate used for workers'
compensation liability.

Frequency of Discount Rate Updates

Discount rates used in the liability computation are prepared using interest rates which
are impacted by the economic environment. As present economic conditions produce
low interest rates, discount rates correspondingly follow and the resulting liability
increases. If there is an overall trend in interest rates, volatility is reduced by more
frequent updates. Conversely, if the rates fluctuate up and down during a period, more
frequent updates can produce significant fluctuations.

Prior to Q3, FY 2009, management had not updated the discount rates used in the
workers’ compensation model since FY 2007. The liability changes prior to Q3, FY
2009, were fairly stable (as shown in Figure 3). Beginning in Q3, FY 2009, when
management elected to update the discount rates each quarter, volatility increased.




                                              15
Workers’ Compensation Liability Estimate                                                              FT-MA-11-002




               Figure 3: Discount Rates and Changes in Workers’ Compensation
                                Long-Term27 Liability Amounts
                                    FYs 2007 through 2009

                                                                                           Changes in Liability
                           Compensation Claims                       Medical Claims
                                                                                               (Billions)28
                                          Percentage                         Percentage                  Dollar
                                           Change                             Change                    Change
                           Rates                                   Rates                  Liability
                                           from FY                            from FY                   from FY
                                             2007                               2007                      2007
       FY 2007              5.6%                --                 5.4%          --         $6.8           --
   FY 2008           5.6%           0.0%          5.4%             0.0%                     $7.0          $0.2
     Q3,
                     4.7%          (0.9%)         4.1%            (1.3%)                    $8.7          $1.9
   FY 2009
     Q4,
                     4.9%          (0.7%)         4.4%            (1.0%)                    $9.1          $2.3
   FY 2009
Source: Postal Service quarterly 10-Q and annual 10-K financial reports.

As shown at the end of Q3, FY 2009, discount rates declined by 0.9 percent for
compensation and 1.3 percent for medical benefits since the last update in FY 2007. In
large part because of the updates in Qs3 and 4, FY 2009, when compared to FY 2007,
total workers’ compensation liability increased in Q3 by approximately $1.9 billion and
$2.3 billion in FY 2009.

As shown in Figure 4, management continued to update its discount rates on a quarterly
basis. Even though the frequency of changes may lead to greater volatility, depending
on the amount of fluctuation in the interest rates, quarterly updates timely inform the
Board, management, and others of any trends or significant changes in workers’
compensation liability.




27
     Portion of the liability with a future benefit over 1 year.
28
     Amounts may differ due to rounding.




                                                                   16
Workers’ Compensation Liability Estimate                                                             FT-MA-11-002




           Figure 4: Discount Rates and Changes in Workers’ Compensation
                             Long-Term Liability Amounts
                                       FY 2010

                                                                                         Changes in Liability
                      Compensation Claims                  Medical Claims
                                                                                             (Billions)29

                                   Percentage                        Percentage                          Dollar
                      Rates                             Rates                           Liability
                                    Change                            Change                            Change

       Q1,
                       5.0%            0.1%              4.5%            0.1%             $8.2           ($0.9)
     FY 2010
       Q2,
                       5.1%            0.1%              4.5%            0.0%             $8.5            $0.3
     FY 2010
       Q3,
                       3.5%           (1.6%)             3.0%           (1.5%)          $10.530           $2.0
     FY 2010
       Q4,
                       2.9%           (0.6%)             3.0%            0.0%            $11.5            $1.0
     FY 2010
Source: Postal Service quarterly 10-Q financial reports and 10-K reports.

Generally, based on assumptions and inputs used for Q3, FY 2010, a 1 percent
decrease in the discount rate of future compensation and medical payments increases
the liability by approximately $1.3 billion, and a 1 percent increase results in a decrease
of about $1.0 billion.

Our benchmarking efforts disclosed that most other organizations had not revised their
discount assumptions as dramatically as the Postal Service. In fact, three benchmarking
partners used the same discount rate for FYs 2008 and 2009; however, one state
government reduced the discount rate it used in calculating its workers’ compensation
liability. In 2008, the rate was 4.17 percent and declined in 2009 by 0.92 percent to 3.25
percent. This decrease in the discount rate contributed to a 26.2 percent increase in its
total workers’ compensation liability, similar to the Postal Service’s 27.2 percent
increase for Q3, FY 2009, as shown in Figure 5.




29
  Amounts may differ due to rounding.
30
  This also includes a change from forecasted discount rates used as a proxy for current market rates to weighted
average Treasury spot discount rates for Q3, FY 2010.




                                                        17
Workers’ Compensation Liability Estimate                                                 FT-MA-11-002




       Figure 5: Comparison of Postal Service and a Benchmarking Partner’s
                     Workers’ Compensation Total Liability

                               Total Workers’ Compensation Liability              Percentage Change
                                  FY 2008                    FY 2009
                                (in millions)              (in millions)

    Postal Service                 $7,968                    $10,133                   27.2%

Benchmarking Partner               $1,985                     $2,505                   26.2%
Source: Postal Service annual 10-K quarterly reports and the state of New York.




                                                   18
Workers’ Compensation Liability Estimate                   FT-MA-11-002



                       APPENDIX C: MANAGEMENT’S COMMENTS




                                           19
Workers’ Compensation Liability Estimate        FT-MA-11-002




                                           20
Workers’ Compensation Liability Estimate        FT-MA-11-002




                                           21
